SemiAnnual Report to the

CONGRESS
  April 1, 2009 - September 30, 2009




OFFICE OF THE INSPECTOR GENERAL
      LIBRARY OF CONGRESS
               Above: The U.S. Capitol as seen from the Northwest Pavilion Window, Thomas Jefferson Building. In
               the mural above the window, a poet is being chosen by Fame, who extends the laurel wreath. Photo by
               Michael Dersin.




   Founded in 1800, the Library of Congress is the nation’s oldest federal cultural institution. The Library seeks to spark imagination
   and creativity and to further human understanding and wisdom by providing access to knowledge through its magnificent collections,
   programs, and exhibitions. Many of the Library’s rich resources can be accessed through its Web site at www.loc.gov and via interactive
   exhibitions on a personalized Web site at myLOC.gov.




Cover: The U.S. Capitol Building.
 October 30, 2009


A Message From the Inspector General

I am pleased to present our Semiannual Report to the Congress for the period ended September 30, 2009.


In the last six months we prepared reports on the Copyright Office, the Library’s alternate computing facility, energy
conservation efforts, Facility Design and Construction Office, Human Resources Services’ Worklife Services Center,
and personally identifiable information (PII) policies. We also reported on the Open World Leadership Center’s
fiscal year 2008 financial statements. In addition, we conducted investigations on topics such as suspected contract
fraud; mishandling of classified documents; misuse of travel cards, government computers, and a government vehicle;
impropriety in the surplus book program; and the Library’s planned migration to the Microsoft Outlook e-mail system.
Finally, in the last six months, we testified before Congress on our reports on Information Technology Strategic Planning
and the Worklife Services Office.


In the next six months, we will report on in-progress reviews of the Library’s travel card program, policies on records
retention, budget procedures, inventories of collections, Human Resources Services’ Workforce Acquisition office, the
proposed replacement of the book conveyor system, and other topics.


During this semiannual period, we concentrated on fulfilling Congress’ request to post publicly available reports on our
Web site. We thank the Library’s Music Division for generously providing a detailee to assist us in this arduous ongoing
task. Many of our reports can now be found at www.loc.gov/about/oig/reports.


We appreciate the cooperative spirit Library managers and staff have shown during our reviews. We are especially encouraged
by the Library’s prompt revisions to the proposed new regulation regarding PII. We worked collaboratively with the Library
to ensure that our recommendations would be both effective and practical. The result of our collaboration was both an
effective audit process and swift adoption of the recommendations.




Karl W. Schornagel
Inspector General
          Table of Contents


          Introduction and Definitions............................................................................................................. 1
          Audits, Surveys, and Reviews............................................................................................................                                2
                 Copyright Office .............................................................................................................................................   2
                 Alternate Computing Facility.............................................................................................................................. 3
                 Energy Conservation...................................................................................................................................... 4
                 Facility Design and Construction....................................................................................................................... 5
                 Worklife Services Center................................................................................................................................. 5
                 Personally Identifiable Information................................................................................................................              6
                 Open World Leadership Center Fiscal Year 2008 Financial Statements.............................................................                 7
          Investigations........................................................................................................................................ 11
              Significant Criminal and Administrative Investigations..................................................................................           12
                 Follow-up on Investigative Issues from Prior Reporting Periods.......................................................................                            14
          Unimplemented Recommendations.................................................................................................                                          16

          Implemented Recommendations.......................................................................................................                                      25

          Funds Questioned or Put to Better Use.........................................................................................                                          29

          Instances Where Information or Assistance Requests Were Refused....................................                                                                     30

          Status of Recommendations Without Management Decisions................................................                                                                  30

          Significant Revised Management Decisions.................................................................................                                               30

          Significant Management Decisions With Which OIG Disagrees.............................................                                                                  30

          Follow-up on Prior Period Recommendations ............................................................................                                                  30

          Other Activities..................................................................................................................................                      31
                 Authority of OIG to Carry Firearms Restored.................................................................................................... 31
                 Cooperative Acquisitions Program Survey.......................................................................................................... 31
                 Pre-Award Contract Review...........................................................................................................................             31
                 Inspector General Testifies on IT Strategic Planning........................................................................................                     31
                 Inspector General Testifies on the Worklife Services Center.............................................................................                         32
          Review    of Legislation and Regulations.........................................................................................                                       33




Opposite, Coffered Domes and Arches in the Southwest First Floor Corridor Leading to the Asian Reading Room,
Thomas Jefferson Building. Photo by Michael Dersin.
We perform many types of services; among them:


Attestations,       which involve examining, reviewing, or applying agreed-
upon procedures on a subject matter, or an assertion about a subject matter.
Attestations can have a broad range of financial or nonfinancial focuses, such
as the Library’s compliance with specific laws and regulations; assertions or
assumptions made in a cost/benefit, breakeven, or requirements analysis;
validation of performance against performance measures; or reasonableness of
cost.


Financial Audits,            which determine whether financial statements
present fairly the financial position, results of operations, and cash flows in
conformity with generally accepted accounting principles, and whether an
entity has adequate internal control systems and complies with applicable laws
and regulations.


Investigations,        which are conducted based on alleged or suspected
wrongdoing by agency employees, contractors, recipients of financial assistance,
and others responsible for handling federal resources. Violations of Library
regulations or fraud committed against the Library can result in administrative
sanctions and/or criminal or civil prosecution.


Nonaudit Services, which are equivalent to consulting services in the
private sector and usually involve providing advice or assistance to Library
managers without necessarily drawing conclusions, or making recommendations.
Auditors are cautious when performing nonaudit services because providing
them may jeopardize the independence needed to later audit that subject area.

Performance Audits,             which address the efficiency, effectiveness, and
economy of the Library’s programs, activities, and functions; provide information
to responsible parties to improve public accountability; facilitate oversight and
decision making; and initiate corrective action as needed.
Introduction and Definitions

The mission of the Office of the Inspector General is to promote
economy, efficiency, and effectiveness by detecting and preventing
waste, fraud, and abuse.

To accomplish our mission, we conduct audits and investigations.


Our philosophy is to be proactive. We believe this approach results in a more efficient use of resources by detecting
and preventing problems early. Accordingly, we are following several key projects throughout the Library and rendering
assistance and making recommendations as needed.


Our staff is educated and certified in various disciplines. We are, collectively, four certified public accountants (CPA), two
attorneys, one certified internal auditor (CIA), one certified information systems auditor (CISA), three special agents, one
investigator, one Master of Library Science, and other highly qualified staff.


Our goals, objectives, strategies, and performance indicators can be found in our Strategic Plan, available on our Web site
at www.loc.gov/about/oig.




                                                                                         Semiannual Report to the Congress 1
       Audits, Surveys, and Reviews
       Copyright office                                                Backlog of Copyright Claims—The backlog of
                                                                       unprocessed copyright claims grew from 397,000 to over
       Follow-Up Review of Copyright Claims Processing
                                                                       500,000 since we issued our 2008 report. At the time of
       Report No. 2001-IT-304
       September 2009                                                  this report, Copyright projected that the backlog would
                                                                       peak within the first two quarters of fiscal year (FY) 2010.
       Because of our concerns with Copyright’s continuing
                                                                       The productivity of Specialists was expected to increase
       backlog of unprocessed claims following a major
                                                                       as the Specialists became more accustomed to their new
       reengineering of its business processes, we followed up
                                                                       duties and responsibilities and eCO. Additionally, 17 new
       on a report we issued in September 2008. Overall, we
                                                                       Specialists were brought on
       found significant improvement in Copyright’s processes.
                                                                       board and eight more were in
       We commend Copyright management for taking swift and
                                                                       the hiring pipeline.
       decisive action to improve its handling of claims.

       Our previous review identified two factors that were            Processing Time of Copyright
       responsible for the considerably long times that Copyright      Claims—Before Copyright
       needed to process copyright claims: (1) an unreliable           began using eCO, the office’s
       technology–optical character recognition (OCR)–used             timeframe for processing
       to “read” paper applications, and (2) the slow operating        claims was approximately
       response time of eCO, Copyright’s new online registration       three months.        However,
       system. OCR did not reliably read information in claim          since the new system was
       applications and its flaws yielded an enormous workload         implemented, the processing
       increase for Copyright Registration Specialists (Specialists)   delays grew long, ranging
       that included proofing claims and in many cases, manually       between about 5 and 20
       typing application information into eCO. Since we               months.      Specialists were
       issued our 2008 report, Copyright has implemented a             required to process an
       2D barcode application system, and established a quality        average of 2½ claims per
       review team to ensure all paper applications, and the small     hour to receive a satisfactory
       percentage of 2D barcode forms that require manual data         performance rating. That
       entry, are correctly entered into eCO, thereby correcting       performance requirement was
       the data migration errors caused by OCR. The office has         established in October 2008,
       also made several changes in eCO’s underlying database          at the time Copyright faced
       settings which have improved the system’s response time.        significant issues involving
                                                                       eCO’s implementation. We
       Copyright’s challenge now is to reduce the claims backlog       questioned whether the
       as efficiently and expeditiously as possible while managing     performance       requirement
       the flow of new claims as they arrive. Some significant         for Specialists was up-to-
       issues we found included:                                       date. The eCO system improved and Specialists no longer
                                                                       performed the extra work needed to overcome OCR’s
       Functionality of eCO—Although Copyright has decreased
                                                                       flaws. Accordingly, we recommended that Copyright
       eCO’s operating response time from sometimes hours to
                                                                       revisit the performance requirement as improvements are
       less than 60 seconds since we issued our 2008 report, the
                                                                       made in claims processing and eCO to ensure that it is
       office continues to work with the Library’s Information
                                                                       based on current operating conditions.
       Technology Services directorate to decrease it further.
       Copyright’s goal is that the system’s delays be under 15
                                                                       Copyright’s Customer Service—Copyright’s Information
       seconds. Copyright is also moving forward with an upgrade
                                                                       Section has been challenged to maintain a high level of
       to eCO which is expected to improve its usability.
                                                                                        Above: Ornamental Decorations in an Arch in the Southwest
                                                                                        First Floor Corridor, Thomas Jefferson Building.
2   Semiannual Report to the Congress
service to the public since eCO was implemented. It             However, we determined that the readiness of the ACF was
continued to maintain the same staffing level it had before     limited because ITS did not ensure that the ACF had the
Copyright began using the new system even though its            necessary infrastructure in place to fully mirror or recover
workload increased and responsibilities expanded due to         some critical systems. Fully mirroring, or copying, systems
the increasing delays in claims processing. Nevertheless,       at the ACF is important because it helps to ensure that the
the section’s staff promptly responded to and capably           Library can effectively recover its critical systems during an
managed the thousands of phone and e-mail inquiries that        emergency, disruption, or disaster.
the section received every month.
                                                                We also found that ITS did not effectively test the Library’s
                           Copyright agreed with our            critical systems at the ACF and did not have a formal
                           findings and recommendation.         process in place for identifying and classifying critical
                                                                systems. Further, we found that IT contingency services
                           Office    of         Strategic       were not clearly defined in written agreements between
                           Initiatives
                           Information Technology
                                                                ITS and the service units. We recommended that ITS:
                           Services
                                                                •	        Establish and implement procedures to
                           Improvements are Needed
                           to Bolster the Readiness             periodically conduct a comprehensive needs assessment
                           of the Alternate                     of the hardware, software, and equipment at the ACF and
                           Computing Facility
                                                                ensure that adequate infrastructure is in place to mirror the
                           Audit Report No. 2009-IT-101         Library’s critical systems;
                           September 2009

                                                                •	       Ensure that the availability and functionality of
                            The Library’s Office of Strategic
                                                                the Library’s critical systems at the ACF are periodically
                            Initiatives, Information
                                                                tested and that the results of those tests are adequately
                            Technology Services (ITS)
                                                                documented and reviewed;
                            is responsible for developing
                            and testing the Library’s IT
                                                                •	        Develop and implement procedures to periodically
                            Continuity of Operations
                                                                test the backup media, such as back up tapes, at the ACF;
                            Plan (IT COOP). ITS is also
                            responsible for maintaining
                            the Library’s alternate backup      •	        Conduct a comprehensive evaluation of remote
                            data center at the Alternate        access and connectivity to the ACF from the Library’s
                            Computing Facility (ACF)            designated emergency operations site and from other remote
                            that the Library shares with        locations, such as the homes of essential personnel, under
                            other agencies. The ACF is an       the condition that the main data center is unavailable;
integral part of the Library’s IT COOP because it mirrors
and stores data from the Library’s IT systems.                  •	         Work with the Library’s executive management
                                                                team to develop a formal process for identifying and
During the past seven years, the Library has received more      classifying the Library’s mission essential functions and
than $37 million from Congress to develop and maintain          critical systems; and
its ACF data center and to fully mirror, or copy, its
critical systems. When the Library received funding from        •	        Work with the Library’s service units and divisions
Congress for the ACF, it agreed to provide “continuous          to ensure that written agreements regarding IT contingency
support of essential systems” and “IT business continuity.”     services are standardized, current, and clearly define how



                                                                                        Semiannual Report to the Congress 3
       the systems are mirrored, or backed up, at the ACF. The            2003 baseline with a final goal of 30 percent reduction
       written agreements should include detailed information             by 2015. As of 2008, the AOC achieved its interim year
       regarding testing procedures for ensuring that the systems         goals.
       are recoverable and functional at the ACF.
                                                                          To continue to meet the EISA goals, the AOC has
       OSI generally agreed with most of our recommendations.             scheduled energy audits for each of the Library’s three
                                                                          Capitol Hill buildings to identify cost-effective projects
       Library-Wide
                                                                          that would decrease energy use and related greenhouse gas
       Survey of the Library’s Energy Conservation Efforts                emissions. The AOC has obtained Congressional approval
       Audit Survey Report No. 2009-PA-103                                to use Energy Savings Performance Contract (ESPC)
       July 2009
                                                                          arrangements to facilitate achievement of the identified
       The operation of the Library of Congress’ buildings requires       projects. Under an ESPC, the AOC enters into a long-term
       large amounts of energy and water, and generates equally           contract (up to 25 years) with a private energy services
       large amounts of waste. During 2008 alone, the estimated           company. The company conducts a comprehensive energy
       cost for electricity, water, and steam for these buildings was     audit and then finances and implements energy saving
       $18 million.                                                       projects approved by the AOC. The AOC/Library repays
                                                                          the company with the resulting energy savings. Overall,
       Our report provided the results of an audit survey we              the AOC expects the total energy used by the Library to
       performed to assess energy conservation at the Library and         decrease by 20 percent after the identified energy projects
       evaluate the Library’s and the Architect of the Capitol’s          are completed. AOC officials intend to award contracts for
       (AOC) efforts to reduce energy consumption, emissions of           the projects during FY 2010.
       pollutants, and greenhouse gasses. We limited our survey
                                                                          The Library’s Energy Conservation Initiatives—The Library
       to the Library’s three Capitol Hill complex buildings.
                                                                          has initiated a variety of programs to conserve energy and
       The AOC is responsible for the maintenance, renovation,            recycle waste. Integrated Support Services (ISS) sponsors
       and new construction of all buildings within the Capitol           various forums and meetings to promote conservation by
       Hill complex, including Library buildings. Its staff provide       Library staff. Additionally, ISS had established an active
       mechanical, electrical, plumbing, elevator, structural, and        recycling program for paper and ink cartridges and was
       maintenance work for the Library’s buildings and grounds,          participating in the “Computers for Learning Program”
       and make any necessary building improvements. On the               which involves donating used computer equipment to
       Library’s behalf, Facility Services is responsible for planning,   eligible schools. Facility Services management plans to
       designing, and implementing space usage, custodial care for        request budget approval to establish a new position within its
       the buildings, and monitoring and reporting to the AOC             Facility Operations section to serve as Energy Coordinator
       any facility structural or mechanical problems.                    to help facilitate and promote energy conservation and
                                                                          recycling activities within the Library.
       Based on the results of our survey, we determined that the
       Library and AOC are taking appropriate steps to reduce the         We commended Facility Services for its plan to establish the
       Library’s energy consumption. Accordingly, we concluded            coordinator position. However, regardless of the outcome
       this project with an audit survey report. Some significant         of the related planned budget request, we believed that
       issues we identified during this review include:                   the Library should be undertaking more energy awareness
                                                                          activities to ensure staff fully participate in efforts to
       The AOC’s Energy Conservation Initiatives—The AOC                  conserve energy and follow the Library’s conservation
       adopted the spirit of the Energy Policy Act of 2005 (EPACT         policy. We recommended that ISS management undertake
       2005) and the Energy Independence & Security Act of                more initiatives to increase awareness among Library staff
       2007 (EISA). The EISA spells out annual energy reduction           of the importance of energy conservation and recycling
       goals for federal government buildings, starting from a            programs.


4   Semiannual Report to the Congress
ISS and the AOC generally agreed with our report and             delivering project service, ineffective workforce planning,
recommendation.                                                  unstructured and undisciplined project management, and
                                                                 ineffective assessment and monitoring of FAST requests.
Integrated Support Services
Facility Design and Construction                                 Our follow-up revealed that FD&C had improved its
                                                                 service and management oversight and was operating in
Service Significantly Improved, but Project
Management Framework Still Lagging                               a more business-like manner. Library service units were
                                                                 satisfied with the office’s service and project work, especially
Follow-up: Audit Report No. 2006-PA-107
September 2009                                                   the work involving major projects, mainly because FD&C
                                                                 was responding to work requests more promptly. We also
The Library’s Facility Design and Construction Office            determined that FD&C had fully implemented or plans
(FD&C) is a unit of Integrated Support Services. Its             to implement by year-end the recommendations we made
responsibilities include planning and designing spaces in        in 2007. However, despite such improved performance,
the Library’s buildings–which include about 4.4 million          we also found that FD&C had room to improve its
square feet of floor space on Capitol Hill.                      project control and documentation and reiterated a prior
                                                                 recommendation to this effect.
The office is responsible for facility plan projects involving
design and project management for major Library space
                                                                 Human Resources Services
redesign and reconfiguration. Considerable planning,             Worklife Services Center
procurement, and construction are required including
                                                                 Good Overall Service, but Weak Controls
careful consultation between FD&C, various service               Leaves the Worklife Services Center
providers, and the AOC. Additionally, FD&C receives              Vulnerable to Abuse and Fraud
and generates approximately 4,800 requests annually,
                                                                 Audit Report No. 2009-PA-101
which call for such tasks as moving furniture, performing        June 2009
minor repairs, and working on design and construction
projects. FD&C uses the “Facilities Automated Service            Human Resources Services (HRS) is a key component of
Tracking” (FAST) system to track service request and work        the Library of Congress’ enabling infrastructure. It works
order activities.                                                with, and provides management strategies for, the Library’s
                                                                 service and infrastructure units to plan for, secure, and
This report provided the results of a review we performed        manage the human capital that the Library needs to fulfill
to follow up on issues we identified through our audits          its mission. The organization includes five offices: Strategic
of FD&C in FYs 2002 and 2007. Our objectives                     Planning and Automation, Workforce Acquisitions,
were to determine whether FD&C has addressed the                 Workforce Management, Workforce Performance and
previously identified issues and taken appropriate action        Development, and the Worklife Services Center (WSC).
to improve its service. In our FY 2002 audit, we found
that FD&C needed to improve both its timeliness                  This report provided the results of our audit of the WSC.
and communications with customers. We also found                 Principal objectives of this audit included 1) assessing the
that FD&C was not recording important information                efficiency and effectiveness of the WSC’s activities and
needed to provide effective oversight and make sound             services, 2) determining whether there were adequate
decisions regarding workforce management. In our FY              internal controls to ensure timeliness, quality, and accuracy,
2007 audit, we identified issues from our FY 2002 audit          and 3) evaluating the office’s compliance with applicable
work that FD&C had not fully corrected. Moreover, we             laws and regulations.
identified additional factors that were adversely affecting
the timely delivery of FD&C’s services including high staff      We determined that the overall service provided by the
turnover, overwhelmed supervisors, unclear guidance on           WSC was satisfactory. We found that personnel action




                                                                                          Semiannual Report to the Congress 5
       requests were being processed in a timely manner. In            to test for fraud. We recommended that HRS implement
       addition, based on the results of a customer service survey     safeguards to restrict the access rights of legitimate users
       we performed, we found that service and infrastructure          to the specific systems and files the users need to perform
       points of contacts were generally satisfied with the level of   their work.
       service provided by the WSC. However, our audit also
                                                                       Performance Standards for the WSC’s Employees—The
       found that the WSC lacked the controls that were needed
                                                                       WSC had not developed adequate performance metrics
       to ensure efficient and effective operation of the Library’s
                                                                       to objectively and adequately evaluate the performance of
       leave programs and to detect and prevent the occurrence of
                                                                       its staff. The standards that were in use were broad and
       fraud and erroneous transactions. Following are summaries
                                                                       vague and did not clearly define the quality or quantity of
       of significant issues we identified during this audit and key
                                                                       work expected from the WSC’s employees. Consequently,
       recommendations to improve the WSC’s operations:
                                                                       the performance evaluations were highly subjective and
       Oversight of Leave Administration—Neither the WSC’s             it was difficult for HRS supervisors to hold employees
       Leave Administration nor the Library’s timekeepers were         accountable for their work. We recommended that the
       effectively monitoring Leave Bank awards to ensure that         WSC develop more objective and measurable requirements
       the recipients (1) received the full leave amounts that         for its employees’ performance standards.
       were granted, (2) used awarded leave only for the medical
                                                                       HRS agreed with all of our recommendations.
       emergencies for which it was approved, and (3) returned
       any unused awarded leave to the Leave Bank. Additionally,
                                                                       Library-Wide
       timekeepers were not using leave error reports to resolve
       leave discrepancies because they had not been adequately        Library Policies and Procedures Protecting
                                                                       Personally Identifiable Information Require
       trained on how to use the reports’ information. As a result,    Overhauling to Assure Adequate Security
       the balances of a high number of employee leave accounts
                                                                       Audit Report No. 2008-PA-104
       were inaccurate. Moreover, these leave error reports that
                                                                       September 2009
       were not being utilized cost the Library approximately
       $50K a year. Over a five-year period, about $250,000            The benefits of the information age have been accompanied
       of Library funds could be put to better use by resolving        by the serious side effects of increased identity theft, internet
       the leave discrepancies in the leave error reports. We          fraud, and predatory cyber activities. Increasingly, the
       recommended that the WSC adopt a more active oversight          criminal engines of the information age prey on unprotected
       role for leave administration.                                  personally identifiable information (PII) to fuel many of
                                                                       their schemes. PII is now almost as marketable as cash and
       Controls for Access to Key HRS IT Systems—HRS had
                                                                       financial securities. Therefore, Library management must
       neither restricted access to its automated systems to the
                                                                       assure that it designs its asset and information security
       extent necessary nor established controls to effectively
                                                                       strategies to adequately protect PII against ever increasing
       monitor the activities of employees with wide access
                                                                       threats.
       privileges. Specifically, (1) Master Timekeepers had
       unnecessary access rights in the Library’s timekeeping          PII is any information that can be used to distinguish or
       system to view and adjust the leave balances of employees       trace an individual’s identity, such as name, social security
       outside of their supervision; (2) some employees had            number, birthday, birthplace, mother’s maiden name,
       inappropriate access rights to critical HRS IT systems          biometric records, and/or any other piece of personal
       because system responsibilities had not been appropriately      information which is linked or linkable to an individual.
       separated; and (3) activities of employees who had special      It involves a wide variety of data that has the potential
       access rights to the Library HR management system were          to harm, embarrass, and inconvenience an individual if
       unsupervised. As a result, opportunities existed for fraud      compromised.
       or abuse to occur. Due to missing controls, we were unable


6   Semiannual Report to the Congress
We audited the Library’s collection, use, and disposal of PII    implement a directive to uniformly control supervisors’
and concluded that its current approach was inconsistent         employee files.
with best practices as articulated by the Government
                                                                 Reporting to OIG for Investigation—There was no Library
Accountability Office. Additionally, we found that legacy
                                                                 policy direction for reporting unauthorized PII disclosures
electronic and non-electronic systems pose special risks for
                                                                 to the Office of the Inspector General immediately upon
the Library. The Library’s approach to protecting PII can
                                                                 discovery. In the absence of an immediate investigation into
be improved and risk reduced by revising its organizational
                                                                 a PII incident, the potential for greater harm to the violated
structure, policies, and procedures. Some significant issues
                                                                 individual(s) occurs with the passage of time. Additionally,
we found included:
                                                                 the risk of the audit trail becoming eroded or destroyed
                                                                 increases with delays in commencing an investigation. We
No Chief Privacy Officer—The Library had not designated
                                                                 recommended that the Library enact a policy requiring
a senior official responsible for the oversight of key privacy
                                                                 Library management and staff to immediately report all
functions, leaving to individual Library managers and
                                                                 suspected unauthorized disclosures of PII to the Office of
offices working with ITS the responsibility for protecting
                                                                 the Inspector General.
sensitive PII. We also determined that the Library handled
PII security inconsistently. We recommended that the             Library management agreed with our findings and
Library designate a Chief Privacy Officer to oversee key         recommendations, and has already acted on several by
privacy functions including formulating PII policy,              revising the proposed PII regulation.
security, compliance, and training.
                                                                 Open World Leadership Center

Insecure Manual and Electronic Legacy Systems Contain            Fiscal Year 2008 Financial Statements
PII—Many organizational units maintained inadequate              September 2009

security over manual files with employee information
                                                                 The mission of the Open World Leadership Center (the
including name, address, home phone number, and social
                                                                 Center) is to enhance understanding between the United
security number for emergency contact information
                                                                 States and the countries of Eurasia and the Baltic States.
purposes and as unit level employee personnel and
                                                                 The Open World Program enables emerging leaders
performance files. During our surprise inspections, we
                                                                 from Russia and other Eurasian countries to experience
found files containing sensitive PII unsecured in 53%
                                                                 American democracy and civil society in action. Since
of cases and work areas with sensitive PII exposed and
                                                                 its founding by the Congress in 1999, the Open World
unattended in 33% of cases. In addition, our review of
                                                                 Program has enabled more than 12,000 current and
legacy electronic systems found various issues, such as social
                                                                 future leaders from Russia, Ukraine, Azerbaijan, Belarus,
security numbers, systems without password protection
                                                                 Georgia, Kyrgyzstan, Lithuania, Moldova, Tajikistan and
or access authorizations, lack of management review of
                                                                 Uzbekistan to experience American democracy and civil
logs, and inadequate segregation of duties in some aspect
                                                                 society, work with their American counterparts, live with
of system operation. We recommended that the Library
                                                                 American families, and gain new ideas and inspiration for
establish procedures to identify, evaluate, minimize, and
                                                                 implementing change at home. Today, the Open World
control manual systems containing PII by designating a
                                                                 Program is the largest U.S.-Russia exchange program
centralized function or official to have the responsibility
                                                                 and a proven model for exchanges for leaders from other
for overseeing PII security for all manual systems; in
                                                                 Eurasian countries.
addition, we recommended that the Library identify legacy
electronic systems containing sensitive PII and develop a
                                                                 The Center is an independent entity in the Legislative
plan to conduct Privacy Impact Assessments. Finally,
                                                                 Branch governed by a board of trustees. Board members
we recommended that the Director of HRS develop and
                                                                 consist of members of the Congress and private citizens.




                                                                                         Semiannual Report to the Congress 7
       The congressional leadership appoints congressional
       members while the Librarian of Congress appoints citizen
       board members. The Librarian of Congress is currently the
       Chairman of the Board.


       Under contract with the OIG, the accounting firm of
       Kearney & Company audited the Center’s FY 2008
       financial statements and issued its Independent Auditor’s
       Report. The audit included the Center’s Consolidated
       Balance Sheets and the related Consolidated Statements
       of Net Costs, Changes in Net Position, and Combined
       Statement of Budgetary Resources for the FY then ended.
       The auditors concluded that the financial statements were
       presented fairly in all material respects, and in conformity
       with generally accepted accounting principles.


       The firm’s auditors also performed tests of compliance with
       laws and regulations, and considered internal controls over
       financial reporting and compliance. In its audit of the
       Center, Kearney & Company found no material weaknesses
       in internal control and no reportable noncompliance with
       laws and regulations it tested.


       We reviewed the firm’s planning and approach to the audit
       and significant working papers, evaluated the auditors’
       qualifications and independence, monitored the progress
       of the audit, coordinated meetings with management, and
       performed other procedures we deemed necessary. Our
       review disclosed that in all material respects, the audit
       complied with U.S. generally accepted auditing standards.




              Opposite: Librarian’s Ceremonial Office, Thomas Jefferson
              Building. Photo by Carol M. Highsmith




8   Semiannual Report to the Congress
Semiannual Report to the Congress 9
10 Semiannual Report to the Congress
         Investigations
          During the reporting period we opened 56 investigations and closed 29. We forwarded seven cases to Library management
          for administrative action, and one to the Department of Justice for criminal prosecution. Case and Hotline activity are
          detailed below:

           Table 1: 	           Investigation Case Activity

                                                           Criminal/Civil                    Administrative             Total
           From Prior Reporting Period                             16                             11                      27
           Opened                                                  15                             41                      56
           Closed                                                  12                             17                      29


           End of Period                                           19                             35                      54



           Table 2: 	           Hotline Activity

                                                                                                        Count
           Allegations received                                                                          19
           Referred to management for action                                                              5
           Opened as investigations                                                                      12
           Closed with no action                                                                          2




Opposite: Sconce and Arch in the Librarian’s Ceremonial Office, Thomas Jefferson Building.
The Lunette illustrates the evolution of the Poet. Photo by Michael Dersin.


                                                                                                          Semiannual Report to the Congress 11
       Significant Criminal and
       Administrative Investigations

       Suspected Contract Fraud                                      Misuse of Travel Cards


       We received allegations that the Library’s food services      We received allegations from the Travel Office that three
       contractor had improperly fired and laid off union            Library employees were suspected of misusing their
       employees, hired an employee with undocumented                Government travel cards to make unauthorized cash
       immigration status, and reported operating losses while       withdrawals from automated teller machines (ATM) and
       its business was profitable.                                  purchases not related to official travel.

                                                                     In the first case, our investigation revealed that the
       Our investigation revealed no apparent violations of
                                                                     employee knowingly used her travel card to withdraw
       laws or Library regulations and no irregularities in the
                                                                     $1,303 from ATMs for personal use. The matter was
       terminations and lay offs of union employees. However,
                                                                     referred to management and is pending administrative
       we identified poor accounting and business practices that
                                                                     action.
       contributed to the contractor’s difficulties in controlling
       and reporting expenses. We also determined that some          In the second case, the employee used her travel cards
       federal tax documents were filed late, only after we began    to make unauthorized ATM withdrawals and purchases
       the investigation. Despite the late filing of these forms,    totaling $12,715. The matter was also referred to
       the amounts reported were immaterial and did not              management and is pending administrative action.
       warrant further investigation.
                                                                     In the third case, an employee with a history of prior
       A subsequent Defense Contract Audit Agency review             travel card abuse used his card to make 16 unauthorized
       conducted during competition for a new Library food           withdrawals from ATMs and purchases totaling $2,794.
       services contract confirmed the financial management          The employee initially denied responsibility for some
       issues observed during the investigation. The vendor was      charges, claiming the card had been stolen. However,
       not awarded the new contract.                                 when faced with evidence to the contrary, he conceded
                                                                     that he had made all of the withdrawals for personal
       Pornography                                                   use. This matter too was referred to management and
                                                                     administrative action is pending.
       We found that a Congressional Research Service (CRS)
                                                                     Misuse of Government Vehicle
       employee was viewing substantial amounts of adult
       pornography on his government computer on government          We received a complaint from the General Services
       time. The employee received a 20-day suspension.              Administration that a citizen observed a vehicle registered
                                                                     to the Library driven erratically and dangerously. The
       Classified Documents Mishandled                               witness provided a sworn affidavit regarding the incident.
                                                                     We identified the Library employee driving the vehicle
       A Library courier was handling classified documents after     and determined that the site of the alleged offense was
       her security clearance had been deactivated, and storing      near her home and several miles away from any reasonable
       unsecured classified material in her desk for months          route for her to be traveling on government business. The
       at a time. Our investigation found that inadequate            employee admitted to going home for a personal reason
       supervision contributed to the security breach. Library       on the day in question and also admitted to taking a
       managers made significant program changes subsequent          government vehicle home on other occasions while she
       to the investigation.                                         was working. The matter was referred to management
                                                                     and the employee received a letter of reprimand.


12 Semiannual Report to the Congress
Surplus Book Program Fraud                                     Enterprise Messaging Migration


A program manager in the Library’s Surplus Books               We received a complaint regarding the Library’s Enterprise
Program alleged that a book selector representing a            Messaging Migration project. The Library is currently
university library was selling books received through the      undertaking that project to convert its existing e-mail
program. Program participants must sign an agreement           system to Microsoft (MS) Exchange. The estimated cost
that prohibits the sale of surplus books received from the     of the MS system is about $4 million over the first five
Library. Our investigation revealed that the book selector     years of its implementation. The complainant alleged that
sold the surplus books to an on-line book dealer after the     the project will be highly expensive, does not have a clear
university determined that the books were not needed for       objective, and therefore, will be a waste of government
its collections. The proceeds from the sale went to the        funds; specific actions had not been taken to justify
university’s library. Through our efforts, the university      the project, namely a business case had not been made,
returned about 100 surplus books obtained through the          a cost-benefit analysis had not been performed, and
program that they had intended to sell, replaced its book      other possible alternatives had not been considered; and
selector, and agreed to comply with the Library’s program      management directed the project’s performance without
requirements.                                                  soliciting input from key ITS staff on its decision to go
                                                               forward.


                                                               We concluded that there was no evidence to support
                                                               the complainant’s allegations. Although we found that
                                                               ITS does not have a structured IT capital planning and
                                                               investment control process (see Information Technology
               SURPLUS
                                                               Strategic Planning: A Well Developed Framework is Essential
              DUPLICATE
                                                               to Support the Library’s Current and Future IT Needs, Report
           NOT FOR RESALE
                                                               No. 2008-PA-105, March 2009), we determined that ITS
                                                               solicited input from key staff on the project, performed
Altered Library Identification                                 a cost-benefit analysis, and constructed a business case
                                                               supporting its decision to implement MS Exchange.
The U.S. Capitol Police arrested a Library intern
for trespassing. The underage intern had allegedly
manufactured a false Library employee identification
badge by defacing his Library volunteer badge. He used
the counterfeit badge to access restricted areas in the U.S.
Capitol building. We assisted the police by searching
a computer regularly used by the intern. The police
executed a search warrant on the intern’s residence, but no
evidence related to the Library was found. The Library
terminated the intern and barred him from Library and
Capitol buildings. Judicial action is pending.




                                                                                      Semiannual Report to the Congress 13
       Follow-up on Investigations Issues
       From Prior Semiannual Reporting Periods

       Identity Theft


       As we previously reported, our investigation into the theft
       of 10 employees’ identities revealed that a Library employee
       was selling PII to an individual outside the Library for use
       in criminal activities. The outside recipient of the PII was
       sentenced in July to 30 months in prison and ordered to
       pay $30,000 in restitution to the various companies and
       credit card issuers that suffered damages.


       In a similar but unrelated case, we reported in our last
       semiannual report that we had obtained and served a search
       warrant on the residence of a subject where fraudulent
       credit applications were originating. One of the fraudulent
       applications used the PII of a Library employee. Based
       on evidence obtained during the search we prepared an
       affidavit requesting an arrest warrant through the U.S.
       Attorney’s Office in Washington, D.C., but subsequently
       withdrew the request after our agents lost their ability to
       carry firearms. We referred the case to the U.S. Postal
       Inspection Service and U.S. Secret Service, but no action
       was taken; however, after the restriction on our agents use
       of firearms was lifted, we reissued to the court our request
       for an arrest warrant.

       Embezzlement


       As we previously reported, our investigation into thefts
       of funds from the Library’s Retail Marketing Office Store
       resulted in two employees pleading guilty to embezzlement,
       one of which retired after being notified of the Library’s
       decision to terminate her for misconduct. During this
       reporting period, the second subject resigned after also
       receiving written notice of a decision to terminate him for
       misconduct.




                                                          Opposite: Members’ Room, Thomas Jefferson Building. The mosaic above the mantle depicts
                                                          “Law” with Justice as the central figure. Photo by Michael Dersin.



14 Semiannual Report to the Congress
Semiannual Report to the Congress 15
Unimplemented Recommendations
Table 3A: 	         Significant Recommendations from Previous Semiannual
                    Reports for Which Corrective Action Has Not Been Completed
                            Report No. and
        Subject                                    Office        Rec. No.   Summary and Status of Recommendation
                              Issue Date
Office of the Chief Financial Officer (OCFO)
                                                                            Revise Financial Services Directive 05-02–An updated
Disbursing Office            2007-PA-103         Disbursing
                                                                   II.a     directive is in draft with a target date for completion of
Controls                    September 2008         Office
                                                                            November 30, 2009.
                                                                            Automate the interface for transmitting electronic
Disbursing Office            2007-PA-103         Disbursing                 payments–OCFO research determined there is no system
                                                                   II.d
Controls                    September 2008         Office                   solution to this issue, however, OCFO will pursue other
                                                                            means of file transmittal during FY 2010.
                                                                            Seek funding to ensure backup power is available at the
                                                                            alternate facility–The Library determined that a backup
Disbursing Office            2007-PA-103         Disbursing
                                                                  IV-1      power source would be cost-prohibitive and is instead
Controls                    September 2008         Office
                                                                            planning to relocate the site to a facility which already has
                                                                            backup power.
Integrated Support Services (ISS)
                                                                            Reevaluate three questionable surge allowances–ISS met
                                                                            with each service unit to discuss their storage needs and
Requirements Analysis                            Integrated
                              2006-SP-802                                   has removed excess materials stored at Landover. Now
for the Proposed Fort                             Support          III
                              March 2008                                    that it has determined the amount of space required, ISS is
Meade Logistics Center                            Services
                                                                            reevaluating the surge allowances and expects to complete
                                                                            the review by the end of this calendar year.

                                                                            Recalculate the growth factor and consider leasing storage
Requirements Analysis                            Integrated                 space on an as-needed basis to accommodate potential
                              2006-SP-802
for the Proposed Fort                             Support          IV       growth in storage requirements–ISS is working with the
                              March 2008
Meade Logistics Center                            Services                  Architect of the Capitol to evaluate various occupancy
                                                                            scenarios, including commercial lease alternatives.

                                                                            Implement an automated system that includes components
Federal Employees’
                             2008-PA-102       Health Services              for tracking Federal Employees’ Compensation Act claims
Compensation Act                                                    II
                            September 2008         Office                   and alerting ISS of upcoming reporting deadlines–ISS is
Program
                                                                            procuring a system.
Federal Employees’                                                          Revise Library of Congress Regulation (LCR) 2018-5–A
                             2008-PA-102       Health Services
Compensation Act                                                   IV       draft LCR was circulated and is on target for issue in fall
                            September 2008         Office
Program                                                                     2009.

Landover Center                                  Integrated                 Develop an inventory retention policy–ISS has drafted a
Annex Warehouse               2009-PA-102         Support           II      directive and expects to distribute it to the service units by
Inventory Controls                                Services                  the end of the calendar year.

Copyright Office (CO)
                                                                            Determine the staffing level needed to both process
Conditions in the
                                                                            incoming claims and eliminate the backlog–When the mix
Processing of                September 2008      Copyright          3
                                                                            of weekly receipts stabilizes, Copyright will determine the
Copyright Claims
                                                                            optimal staffing levels and begin moving staff accordingly.




16 Semiannual Report to the Congress
Table 3A: 	       Significant Recommendations from Previous Semiannual
                  Reports for Which Corrective Action Has Not Been Completed
                          Report No. and
        Subject                                Office         Rec. No.   Summary and Status of Recommendation
                            Issue Date

Library Services (LS)

                                                                         Develop a decision model for determining reading room
                                                                         space requirements–LS has developed various consolidation
Utilization of             2003-PA-104                                   plans and is collecting data, but has not developed a
                                           Library Services     II.1
Reading Rooms              March 2004                                    decision model. OIG Note: This recommendation has
                                                                         been open since 2004 and we urge the Library to promply
                                                                         take action.
                                                                         Use the decision model to make decisions about reading
                                                                         room, office space, and storage requirements–A decision
                                                                         model has not been finalized by LS. LS will relocate the
                                                                         Motion Picture and Television reading room adjacent to
Utilization of             2003-PA-104
                                           Library Services     II.2     the Performing Arts Reading Room in the coming months.
Reading Rooms              March 2004
                                                                         Other decisions regarding space allocation are under review.
                                                                         OIG Note: As with the previous recommendation, this
                                                                         one has been open for more than four years. We urge the
                                                                         Library to promptly take action.
                                                                         Establish criteria for specifically defining Top Treasure
Top Treasures                                                            collection items and clearly define a process to nominate/
Security and               2008-PA-103                                   transfer collection items to the Top Treasure category–LS
                                           Library Services     I.a
Preservation               January 2009                                  drafted an LCR that is under review by the curatorial
Controls                                                                 divisions and expects to present the finalized LCR to the
                                                                         Office of General Counsel by June 2010.
                                                                         Reevaluate the position designations of staff members with
                                                                         authorized vault access who occupy non-sensitive positions
Top Treasures
                                                                         and revise LCRs dealing with sensitivity designations for
Security and               2008-PA-103
                                           Library Services     I.c      positions with access to priceless collection items–The
Preservation               January 2009
                                                                         Conservation Division and the Office of Personnel Security
Controls
                                                                         (PS) are discussing the ramifications of implementing this
                                                                         recommendation.

                                                                         Develop and implement an automated system to track
                                                                         and account for new acquisitions and establish adequate
                                                                         segregation of duties–LS is in the process of developing
 Rare Books and Special    2008-PA-101
                                           Library Services     I.a      an automated tracking system for Rare Books and Special
 Collections Security      March 2009
                                                                         Collection (RBSC) aquisitions where an independent
                                                                         technician will input tracking data. Implementation will
                                                                         occur by November 2010.

                                                                         Develop and document new policies and procedures for
                                                                         authorizing, tracking, and reviewing collection material
                                                                         on loan–LS management is in the process of updating
 Rare Books and Special    2008-PA-101
                                           Library Services     I.c      the files for materials on loan and revising procedures. A
 Collections Security      March 2009
                                                                         new database will be developed in coordination with the
                                                                         Interpretive Programs Office employing the recommended
                                                                         reporting features by November 2010.




                                                                                       Semiannual Report to the Congress 17
Unimplemented Recommendations
Table 3A: 	        Significant Recommendations from Previous Semiannual
                   Reports for Which Corrective Action Has Not Been Completed

                           Report No. and
         Subject                                   Office         Rec. No.          Summary and Status of Recommendation
                             Issue Date
                                                                             Develop and document procedures for outgoing mail to
                                                                             prevent unauthorized removal of collection items–The
 Rare Books and Special      2008-PA-101
                                               Library Services     I.d      RBSC chief has drafted new procedures which will
 Collections Security        March 2009
                                                                             be documented in an update of the RBSC policy and
                                                                             procedures manual to be completed by March 2010.
                                                                             Reevaluate background investigation procedures for Rare
                                                                             Book management and periodocally update background
 Rare Books and Special      2008-PA-101                                     investigations–LS is reevaluating position descriptions
                                               Library Services     I.f
 Collections Security        March 2009                                      and reassessing background check procedures for RBSC
                                                                             management with PS and Human Resources Services
                                                                             (HRS).
                                                                             Library management should work with U.S. Capitol Police
                                                                             (USCP) to identify areas where the collections require
 Rare Books and Special      2008-PA-101                                     special coverage–Library management has established
                                               Library Services      II
 Collections Security        March 2009                                      an emergency water response team to work with USCP
                                                                             including special procedures for USCP inspections of
                                                                             collections during inclement weather.
 Office of Security and Emergency Preparedness (OSEP)
                                                                             Develop or obtain a threat/risk assessment–Library
                                                  Office of                  management now relies on the USCP to conduct threat/
 Emergency Preparedness      2005-PA-104        Security and                 risk assessments of the Library. By December 2009, the
                                                                    III
 Program                     March 2006          Emergency                   USCP plans to conduct a threat/risk-based analysis of the
                                                Preparedness                 Library to determine its security posture in relation to the
                                                                             overall Capitol Hill complex.
 Office of the Librarian
                                                                             Revise Library of Congress Regulation (LCR) 2020-7 to
                                                 Office of                   allow complainants to use dispute resolution during the
 Dispute                     2002-PA-104       Opportunity,                  formal complaint process–The newly appointed Director
                                                                    III
 Resolution Center          September 2003     Inclusiveness,                of Opportunity, Inclusiveness, and Compliance (OIC) is
                                              and Compliance                 drafting a new LCR with a target date of late Spring 2010
                                                                             for publication.

                                                 Office of
 Equal Employment                                                            Evaluate and revise LCR 2010-3.1–The newly appointed
                            2001-PA-104        Opportunity,
 Opportunity Complaints                                              I       Director of OIC is drafting a new LCR with a target date
                            February 2003      Inclusiveness,
 Office                                                                      of late Spring 2010 for publication.
                                              and Compliance

                                                                             Coordinate with OCFO to identify opportunities for
                                                                             modifying/improving Momentum–The Office of Contracts
                                                                             and Grants Management (OCGM) and OCFO are
                                                                             working on a Users’ Guide for procurement professionals
 Office of Contracts-                                                        and importing Federal Acquisition Regulation (FAR)
                             2007-PA-102          Office of
 Service Remains Less                                               IV       and Library-specific contract clauses into Momentum.
                            September 2007        Contracts
 Than satisfactory                                                           Information Technology Services (ITS) has completed a
                                                                             workflow analysis of Momentum procurement processes
                                                                             to identify and eliminate unnecessary and redundant tasks.
                                                                             OCGM has not established target dates for completing
                                                                             these initiatives.

18 Semiannual Report to the Congress
Table 3A: 	        Significant Recommendations from Previous Semiannual
                   Reports for Which Corrective Action Has Not Been Completed
                         Report No. and
        Subject                               Office         Rec. No.           Summary and Status of Recommendation
                           Issue Date
                                                                       Lack of compliance with certain FAR requirements–
Lack of Compliance
                                                               Non     OCGM is working to review uncertainties between the
with Library              2008-SP-101        Office of
                                                            Compliance Library’s contracting policies and the FAR. In FY 2010,
Contracting Policy is     March 2008         Contracts
                                                             Reason 4 OCGM will propose changes to LCRs 2110 and 2111 to
Widespread
                                                                       clarify which FAR requirements apply to the Library.
                                                                         The Development Office (DO) should: document its
                                                                         access control policy, and revise password access to comply
Raiser’s Edge             2006-IT-302      Development
                                                                 I       with IT Security Directive 02–The DO has documented
Software Program         December 2007        Office
                                                                         its access control policy and is working with the Raiser’s
                                                                         Edge vendor to enable conforming user passwords.
                                                                         The Director of the DO should ensure that the Raiser’s
Raiser’s Edge             2006-IT-302      Development                   Edge system undergoes Certification and Accreditation
                                                                II
Software Program         December 2007        Office                     (C&A)–ITS and the DO are currently conducting the
                                                                         C&A.
                                                                         System managers for Raiser’s Edge should regularly review
Raiser’s Edge             2006-IT-302      Development                   the system’s transaction logs for suspect data events–ITS
                                                                III
Software Program         December 2007        Office                     and the DO are addressing system upgrade problems
                                                                         preventing the recommended enhancement.
                                                                         The Library should assess its diversity program annually
                                             Office of
                                                                         using the EEOC’s MD-715 criteria and develop a plan to
Diversity Management      2008-SP-104      Opportunity,
                                                               II.1      achieve essential elements in the model–The Director of
Program                    July 2008       Inclusiveness,
                                                                         OIC plans to fully implement this recommendation by
                                          and Compliance
                                                                         October 2010.
                                                                         The Library should develop a tracking system that will
                                                                         notify the OIC when an employee is promoted to a
                                             Office of
                                                                         supervisor and then disseminate the EEO policy statement
Diversity Management      2008-SP-104      Opportunity,
                                                               II.3      to the newly appointed supervisors on an ongoing basis–
Program                    July 2008       Inclusiveness,
                                                                         OIC is working with HRS and the Office of the Librarian
                                          and Compliance
                                                                         to develop a strategy to implement the recommendation.
                                                                         Projected time to fully implement is 2-4 years.
                                                                         Track promotions and performance evaluations to
                                             Office of
                                                                         determine whether there is consistency among groups–
Diversity Management      2008-SP-104      Opportunity,
                                                               II.5      OIC is working with HRS and the Office of the Librarian
Program                    July 2008       Inclusiveness,
                                                                         to develop a strategy to implement the recommendation.
                                          and Compliance
                                                                         Projected time to fully implement is 2-4 years.
                                                                         Develop a means to conduct an in-depth analysis of
                                             Office of                   separations to identify trends that will assist management
Diversity Management      2008-SP-104      Opportunity,                  in determining reasons behind the separation rates of
                                                               II.6
Program                    July 2008       Inclusiveness,                minorities and females–OIC is working with HRS and the
                                          and Compliance                 Office of the Librarian to develop a strategy to implement
                                                                         the recommendation.




                                                                                      Semiannual Report to the Congress 19
Unimplemented Recommendations
Table 3A: 	         Significant Recommendations from Previous Semiannual Reports
                    For Which Corrective Action Has Not Been Completed
                             Report No. and
        Subject                                   Office        Rec. No.          Summary and Status of Recommendation
                               Issue Date

                                                 Office of                 Organize a facilitative workshop with program supervisors,
Diversity Management          2008-SP-104      Opportunity,                HRS, and OIC staff to discuss identified barriers–OIC
                                                                  II.7
Program                        July 2008       Inclusiveness,              is working with HRS and the Office of the Librarian to
                                              and Compliance               implement the recommendation.
                                                 Office of                 Convene a Hispanic employment work group to develop
Diversity Management          2008-SP-104      Opportunity,                strategies to improve Hispanic representation–The OIC
                                                                  II.8
Program                        July 2008       Inclusiveness,              Director plans to fully implement this recommendation
                                              and Compliance               by October 1, 2010.
                                                 Office of                 Conduct exit interviews to determine why staff leave
Diversity Management          2008-SP-104      Opportunity,                and identify employee perceptions about organizational
                                                                  II.9
Program                        July 2008       Inclusiveness,              commitment to diversity–HRS expects full implementation
                                              and Compliance               no later than October 1, 2009.
                                                                           Identify critical senior level and management positions
                                                                           and focus training, career development, and mentoring
                                                 Office of
                                                                           programs–The Library is designing a senior level
Diversity Management          2008-SP-104      Opportunity,
                                                                  III      development program as one of the components of
Program                        July 2008       Inclusiveness,
                                                                           its succession management plan. HRS also plans to
                                              and Compliance
                                                                           work with the OIC Director on other relevant training,
                                                                           development, and/or mentoring initiatives.
                                                                           The Library should make its “No Fear” data available to
                                                 Office of
                                                                           staff via the Library’s staff intranet Web site and benchmark
Diversity Management          2008-SP-104      Opportunity,
                                                                  IV       this data against other federal agencies of similar size–
Program                        July 2008       Inclusiveness,
                                                                           The OIC Director is working on implementing the
                                              and Compliance
                                                                           recommendation.

Office of Strategic Initiatives (OSI)

                                               Information                 Compare the cost of alternative service providers to find
Long-Distance                 2007-CA-101
                                               Technology          I       the best value to the Library–The Library has not yet
Telephone Service              March 2008
                                                 Services                  compared providers.
                                                                           Create a process to ensure that the IT strategic plan
                                                                           aligns directly with the Library’s strategic plan–A strategic
Information                                    Information
                              2008-PA-105                                  plan update team, composed of staff from across the
Technology Strategic                           Technology         1.A
                              March 2009                                   Library, is engaged in updating the strategic plan; other
Planning                                         Services
                                                                           organizational strategic and operational plans will be
                                                                           based on the updated Library strategic plan.
                                                                           Involve line employees in the Library’s strategic planning
Information                                    Information                 process–OSI management informs us that line employees
                              2008-PA-105
Technology Strategic                           Technology         1.B      are included in the update of the strategic plan described
                              March 2009
Planning                                         Services                  in 1.A above. We will follow up in detail on this
                                                                           recommendation in a subsequent semiannual period.




20 Semiannual Report to the Congress
Table 3A: 	      Significant Recommendations from Previous Semiannual Reports
                 For Which Corrective Action Has Not Been Completed
                       Report No. and
       Subject                            Office      Rec. No.          Summary and Status of Recommendation
                         Issue Date
                                                                 Ensure that all initiatives concerning future library
                                                                 technology are shared Library-wide–Library management
Information                             Information              will accomplish this through the strategic plan update
                        2008-PA-105
Technology Strategic                    Technology      1.C      process, the IT Governance Process, the Information
                        March 2009
Planning                                  Services               Technology Infrastructure Management (ITIM) process,
                                                                 through collaborative informational meetings, and the
                                                                 Library Gazette.
                                                                 Produce a transformational guide that contains a plan of
Information                             Information
                        2008-PA-105                              execution to ensure that the Library moves forward as a
Technology Strategic                    Technology      1.D
                        March 2009                               total institution with one voice–Library management will
Planning                                  Services
                                                                 make this a part of the Enterprise Architecture effort.
                                                                 Form a cohesive, integrated, and centrally managed
                                                                 LC Digital Strategy Plan with roles and responsibilities
Information                             Information
                        2008-PA-105                              of relevant service/support units clearly defined–The
Technology Strategic                    Technology      1.E
                        March 2009                               Executive Committee (EC) has provided draft input on
Planning                                  Services
                                                                 stakeholder needs, roles, and responsibilities as part of
                                                                 developing the plan.
                                                                 Inventory and prioritize existing systems that require
Information                             Information              upgrade and new IT projects to create an IT portfolio–
                        2008-PA-105
Technology Strategic                    Technology      2.A      ITS has an inventory of all existing systems and on-going
                        March 2009
Planning                                  Services               projects. Prioritization will be addressed through the
                                                                 ITIM process that will be launched by March, 2010.
                                                                 Develop a plan to review and eliminate duplicative costs
                                                                 including Help Desks, technical liasons in service units,
                                                                 and coordinate purchases–The Library will implement
Information                             Information
                        2008-PA-105                              on October 1, 2009 a method, using activity codes, for
Technology Strategic                    Technology      2.B
                        March 2009                               tracking and reviewing all IT-related procurement. To
Planning                                  Services
                                                                 identify duplicative costs, the Budget Office has conducted
                                                                 a survey of all IT-related resources in the service and
                                                                 support units and is analyzing the results.
                                                                 Account for all IT costs including computer security as
                                                                 part of the IT budgetary process–The Library maintains
Information                             Information              that IT security is the responsibility of all Library units
                        2008-PA-105
Technology Strategic                    Technology      2.C      and staff. C & A costs will be included in the costs of a
                        March 2009
Planning                                  Services               new system, whether ITS is the performing organization
                                                                 or the system is contracted out. Tracking of these costs are
                                                                 addressed in 2B above.
                                                                 Develop a methodology to maintain and track all IT
                                                                 expenses–The Library will implement on October 1, 2009
Information                             Information              a method, using activity codes, for tracking and reviewing
                        2008-PA-105
Technology Strategic                    Technology      2.E      all IT-related procurement. To identify duplicative costs,
                        March 2009
Planning                                  Services               the Budget Office has conducted a survey of all IT-related
                                                                 resources in the service and support units and is analyzing
                                                                 the results.




                                                                              Semiannual Report to the Congress 21
Unimplemented Recommendations
Table 3A: 	      Significant Recommendations from Previous Semiannual Reports
                 For Which Corrective Action Has Not Been Completed
                       Report No. and
       Subject                            Office      Rec. No.          Summary and Status of Recommendation
                         Issue Date

                                                                 Review and plan for moving forward through the stages
Information                             Information              of the ITIM–The Library has contracted to research
                        2008-PA-105
Technology Strategic                    Technology      2.F      successful ITIM programs/models in like-sized federal
                        March 2009
Planning                                  Services               agencies. The EC will study the proposals and make a
                                                                 determination on an ITIM program by April, 2010.
                                                                 Separate the IT function from OSI and have the Chief
                                                                 Information Officer (CIO) report directly to the Librarian
Information                             Information              or Chief Operating Officer–The Library has contracted
                        2008-PA-105
Technology Strategic                    Technology      3.A      to research successful IT governance programs/models
                        March 2009
Planning                                  Services               in like-sized federal agencies. The EC will study the
                                                                 proposals and make a determination on an IT governance
                                                                 model for the Library by April, 2010.
                                                                 Endow the CIO with authority and responsibility for IT
                                                                 strategic planning, capital planning, asset management,
                                                                 enterprise architecture, and establish a customer advocate
Information                             Information
                        2008-PA-105                              role to ensure accountability–The Library is responding to
Technology Strategic                    Technology      3.B
                        March 2009                               this through its strategic plan update and the contractor’s
Planning                                  Services
                                                                 research on successful IT governance programs. The EC
                                                                 will study the proposals and make a determination by
                                                                 April, 2010.
                                                                 Endow organizational functions such as IT Security
                                                                 with appropriate enforcement authority and policy
Information                             Information
                        2008-PA-105                              responsibilities–The Library is responding to this through
Technology Strategic                    Technology      3.C
                        March 2009                               its strategic plan update and a consultant’s research on
Planning                                  Services
                                                                 successful IT governance programs. The EC will study the
                                                                 proposals and make a determination by April, 2010.
                                                                 Follow Federal Segment Architecture Management
                                                                 (FSAM) templates as a model for developing the
                                                                 architecture segments and use federal agency best practices
Information                             Information              for enterprise architecture (EA) using mainstream tools
                        2008-PA-105
Technology Strategic                    Technology      4.A      and processes–The Library has hired a contractor to
                        March 2009
Planning                                  Services               assist it in conducting Phases 2 & 3 of the EA effort.
                                                                 This includes evaluating and selecting EA models and
                                                                 frameworks, including FSAM. The next phases begin
                                                                 after the EC deliberates on IT governance.
                                                                 Evaluate proposed plans for the development of an EA
                                                                 with the Enterprise Architecture Management Maturity
                                                                 Framework to ensure the plans are in complete alignment–
Information                             Information
                        2008-PA-105                              The Library has hired a contractor to assist it in conducting
Technology Strategic                    Technology      4.B
                        March 2009                               Phases 2 & 3 of the EA effort. This includes evaluating
Planning                                  Services
                                                                 and selecting EA models and frameworks, including
                                                                 FSAM. The next phases begin after the EC deliberates
                                                                 on IT governance.




22 Semiannual Report to the Congress
Table 3A: 	      Significant Recommendations from Previous Semiannual Reports
                 For Which Corrective Action Has Not Been Completed
                        Report No. and
       Subject                             Office      Rec. No.          Summary and Status of Recommendation
                          Issue Date

                                                                  Keep the process for developing an EA in line with similar
Information                              Information              agencies to avoid a process that is too complex or out of
                         2008-PA-105
Technology Strategic                     Technology      4.C      scope with agencies of similar size–We are discussing with
                         March 2009
Planning                                   Services               the Library how its EA process will be in line with that of
                                                                  similar agencies.
                                                                  Include all EA costs in a single budget line item for the
                                                                  entire Library to avoid a burdensome or costly process
Information                              Information
                         2008-PA-105                              for system owners–EA direct costs and program office
Technology Strategic                     Technology      4.D
                         March 2009                               expenses are currently funded through the OSI budget;
Planning                                   Services
                                                                  we are reviewing this coding methodology to determine if
                                                                  it addresses the purpose of the recommendation.
                                                                  Involve all service/support unit system/business process
                                                                  owners in implementing EA–The EA effort includes kick-
Information                              Information              off and status briefings and white papers to the EC and
                         2008-PA-105
Technology Strategic                     Technology      4.E      Operating Committee. The work will be performed by
                         March 2009
Planning                                   Services               domain teams composed of process and business owners
                                                                  throughout the Library, with the guidance and assistance
                                                                  of a consultant.
                                                                  Implement service level agreements to manage customer
Information                              Information
                         2008-PA-105                              expectations–ITS is in the process of developing a
Technology Strategic                     Technology      5.A
                         March 2009                               Memorandum of Understanding with the Law Library
Planning                                   Services
                                                                  and Congressional Research Service for FY 2010.
                                                                  Review the performance metrics, system development
Information                              Information
                         2008-PA-105                              life cycle, IT Security, and help desk processes and obtain
Technology Strategic                     Technology      5.B
                         March 2009                               feedback to improve efficiency and effectiveness–ITS has
Planning                                   Services
                                                                  an ongoing project to achieve this.
                                                                  Use best practices for service management from
                                                                  organizations such as the Help Desk Institute, Information
Information                              Information
                         2008-PA-105                              Technology Infrastructure Library (ITIL), and other
Technology Strategic                     Technology      5.C
                         March 2009                               organiztions–ITS has reviewed the ITIL guidance and is
Planning                                   Services
                                                                  currently comparing the existing Help Desk processes and
                                                                  procedures against the ITIL guidance.
Information                              Information              Implement a commercial-off-the-shelf help desk system
                         2008-PA-105
Technology Strategic                     Technology      5.D      that includes metrics–ITS will address this when both
                         March 2009
Planning                                   Services               human and capital resources are available.
                                                                  Negotiate a new help desk contract to meet service level
Information                              Information              requirements of all service/support units and eliminate
                         2008-PA-105
Technology Strategic                     Technology      5.E      duplicative services–The Library disagreed with this
                         March 2009
Planning                                   Services               recommendation. However, the Library will remove any
                                                                  duplication found by the CFO’s study in 2B above.

                                                                  Develop dynamic, evolving metrics to measure
Information                              Information
                         2008-PA-105                              performance–ITS has reviewed the ITIL guidance and is
Technology Strategic                     Technology      5.F
                         March 2009                               currently comparing the existing Help Desk processes and
Planning                                   Services
                                                                  procedures against the ITIL guidance.



                                                                               Semiannual Report to the Congress 23
24 Semiannual Report to the Congress
Implemented Recommendations
  Table 3B: 	          Significant Recommendations from Previous Semiannual Reports
                       For Which Corrective Action Was Completed During This Period
                                 Report No. and
           Subject                                           Office          Rec. No.           Summary of Recommendation and Actions
                                   Issue Date

  Human Resources Services (HRS)
                                                             Human
  The Library’s Human              2005-AT-902                                            Establish a supervisor’s manual–HRS completed and
                                                            Resources           II.c
  Resources Policies               March 2007                                             implemented the Supervisor’s Manual.
                                                             Services
  Office of Strategic Initiatives (OSI)
                                                                                          Develop a cost-benefit analysis (CBA) process for all IT
  Information                                             Information
                                   2008-PA-105                                            investments and include risk criteria–ITS has implemented
  Technology Strategic                                    Technology            2.D
                                   March 2009                                             a policy requiring a CBA in instances where the cost
  Planning                                                  Services
                                                                                          estimate exceeds $100,000.
                                                                                          Conduct customer surveys and open informational
  Information                                             Information
                                   2008-PA-105                                            meeetings–Since May, ITS has conducted four full
  Technology Strategic                                    Technology            5.G
                                   March 2009                                             collaborative meetings and forty smaller meetings on the
  Planning                                                  Services
                                                                                          email messaging migration.
                                                                                          Implement written procedures to guide and control the
                                                                                          long-distance bill review and payment approval process,
                                                          Information                     and explore acquiring a new automated system to
  Long-Distance                   2007-CA-101
                                                          Technology             II       provide more effective accounting–ITS developed and
  Telephone Service                March 2008
                                                            Services                      implemented both invoice verification and processing
                                                                                          procedures. In lieu of acquiring a new automated call
                                                                                          accounting system, ITS upgraded its existing system.
  Integrated Support Services (ISS)
  Landover Center                                          Integrated                     Develop performance measures for the processing of excess
                                   2009-PA-102
  Annex Warehouse                                           Support             IV.1      property–Management has implemented performance
                                   March 2009
  Inventory Contols                                         Services                      measures.
  Landover Center                                          Integrated                     Determine the cost to process and store excess computers–
                                   2009-PA-102
  Annex Warehouse                                           Support             IV.2      Management has implemented the recommendation as
                                   March 2009
  Inventory Contols                                         Services                      made.
  Landover Center                                          Integrated                     Investigate transferring responsibility for sanitizing excess
                                   2009-PA-102
  Annex Warehouse                                           Support             IV.3      computers to the owning service unit–Management has
                                   March 2009
  Inventory Contols                                         Services                      implemented the recommendation as made.
  Landover Center                                          Integrated                     Expand the inventory system to include the divisions
                                   2009-PA-102
  Annex Warehouse                                           Support              V        storing publications at the warehouse–Management has
                                   March 2009
  Inventory Contols                                         Services                      implemented the recommendation as made.
  FD&C Faces                                               Integrated
                                  2006-PA-107                                             Place a priority on completing the Project Delivery
  Challenges in                                             Support             II.1
                                 September 2007                                           Manual–The Project Delivery Manual was completed.
  Providing Service                                         Services
  FD&C Faces                                               Integrated                     Implement post occupancy evaluations to assess the
                                  2006-PA-107
  Challenges in                                             Support             II.5      outcome of its design efforts–ISS has developed and
                                 September 2007
  Providing Service                                         Services                      implemented the post occupancy evaluation survey.




Opposite: Ground Floor South Corridor, Thomas Jefferson Building. Photo by Karl Schornagel.




                                                                                                          Semiannual Report to the Congress 25
 Implemented Recommendations

Table 3B: 	         Significant Recommendations from Previous Semiannual Reports
                    For Which Corrective Action Was Completed During This Period
                          Report No. and
        Subject                                    Office         Rec. No.         Summary of Recommendation and Actions
                            Issue Date
                                                                             Establish goals for the completion of the FAST service
FD&C Faces                                        Integrated
                           2006-PA-107                                       requests, by type of request–ISS developed and implemented
Challenges in                                      Support          V.1
                          September 2007                                     a work order subsystem to its FAST system to set goals for
Providing Service                                  Services
                                                                             service requests by type.
                                                                             Create a “triage” system to reorder and allocate resources
FD&C Faces                                        Integrated                 based on current workload and resource balance–ISS
                           2006-PA-107
Challenges in                                      Support          V.2      implemented a Web-based project management tool to
                          September 2007
Providing Service                                  Services                  enable it to identify project resource allocations and reorder
                                                                             as necessary.
FD&C Faces                                        Integrated
                           2006-PA-107                                       Establish timeframes for the completion of various project
Challenges in                                      Support          V.3
                          September 2007                                     types–FD&C established the recommended timeframes.
Providing Service                                  Services
                                                                             Analyze the strategy for providing storage space for materials
Requirements Analysis                             Integrated                 in order to determine the best storage strategy for various
                            2006-SP-802
for the Proposed Fort                              Support           I       materials–Logistics Services visited each service/support
                            March 2008
Meade Logistics Center                             Services                  unit storing material in the warehouse, developed, and
                                                                             implemented strategies to reduce storage material levels.
                                                                             Work with other Library managers to improve instructions
                                                                             for mailing documents to the Library and determine
Mail Handling and Its                             Integrated                 if alternate packaging might reduce damage to mailed
                           2007-PA-104
Effects On Collections                             Support          I.b      items–The Library developed an instructional fact sheet
                          September 2008
and Security                                       Services                  for preventing mail damage and is conveying it to Library
                                                                             resources, vendors, and customers. It was also presented to
                                                                             service units and placed on the ISS intranet Web site.
Office of the Librarian
                                                                             Establish policy that officially implements details of the
Office of Contracts-                                                         Office of Management and Budget’s acquisition training
                           2007-PA-102            Office of
Service Remains Less                                                 V       policy–OCGM has established a policy that provides for
                          September 2007          Contracts
Than Satisfactory                                                            training and certification. OCGM managers now conduct
                                                                             weekly training sessions.
                                                                             The Library should give a copy of the current Equal
                                                  Office of
                                                                             Employment Opportunity policy statement to HRS to
Diversity Management        2008-SP-104         Opportunity,
                                                                    II.2     be included in all new employee orientation packets–
Program                      July 2008          Inclusiveness,
                                                                             Management has taken alternative action sufficient to
                                               and Compliance
                                                                             fulfill the intent of the recommendation.
Office of the Chief Financial Officer (OCFO)
                                                                             Coordinate more closely the Workforce Transformation
                                                                             and Workforce Performance Efforts–The Library has
                                                                             made significant progress in this area, including issuing
                                                                             a Succession Management Plan, establishing a Supervisor
                                                   Strategic
Performance-Based          2004-FN-501                                       Development Program, and piloting the performance
                                               Planning Office/     IV
Budgeting                 September 2006                                     module of the EmpowHR system to automate the
                                                Budget Office
                                                                             performance management process.           The Librarian’s
                                                                             Management Agenda calls for the creation of a Human
                                                                             Capital Management Plan including the development of a
                                                                             goal-aligned and results-oriented performance culture.


26 Semiannual Report to the Congress
Table 3B: 	       Significant Recommendations from Previous Semiannual Reports
                  For Which Corrective Action Was Completed During This Period
                         Report No. and
        Subject                               Office         Rec. No.         Summary of Recommendation and Actions
                           Issue Date
Library Services (LS)
                                                                        Develop and communicate to recommending officers
                                                                        criteria for recommending activities–In 2009, the Librarian
                                                                        reassigned a senior staff member to Library Services to focus
Collections               2006-PA-104
                                          Library Services    III.1     on collection development issues. This includes working
Acquisitions Strategy    December 2006
                                                                        with recommending officers on collection development
                                                                        matters to apply consistent and standard approaches to
                                                                        collection development tasks.
                                                                        Evaluate requirements to prohibit one-person access to the
                                                                        vault, limit all-hours access to the vault, and consult with
Top Treasures Security                                                  the Health Services Officer to assess whether staff with
                          2008-PA-103
and Preservation                          Library Services     I.b      vault access should undergo psychological evaluations–
                          January 2009
Controls                                                                Management took alternative action to fulfill the intent to
                                                                        limit vault access. Management concluded psychologocal
                                                                        testing was impractical.
                                                                        Record in a log book all entries to the cold storage vault
Top Treasures Security
                          2008-PA-103                                   area and reasons for entry; ensure accuracy of the log book
and Preservation                          Library Services     I.d
                          January 2009                                  and that it accounts fully for the treasures–Management
Controls
                                                                        has implemented the recommendation as made.
                                                                        Establish and implement a requirement for periodic
Top Treasures Security
                          2008-PA-103                                   examination of Top Treasures to confirm their authenticity–
and Preservation                          Library Services     III
                          January 2009                                  Management has implemented the recommendation as
Controls
                                                                        made.
                                                                        Evaluate options for applying LOC ownership markings on
                                                                        collections materials including when materials are received
                                                                        at the Library–LS and the Collections Security Oversight
Rare Books and Special    2008-PA-101
                                          Library Services     I.b      Committee have re-examined procedures for applying
Collections Security      March 2009
                                                                        ownership markings on RBSC materials including new
                                                                        acquisitions and have concluded no changes will be made
                                                                        to the current policy and practices.
Rare Books and Special    2008-PA-101                                   Add Deck E cameras to front reading room monitors–This
                                          Library Services     I.e
Collections Security      March 2009                                    is completed.




                                                                                       Semiannual Report to the Congress 27
28 Semiannual Report to the Congress
          Funds Questioned or Put to Better Use
           Table 4:	             Audits with Recommendations for Better Use of Funds
           Reports…                                                                                     Number           Value
           …for which no management decision was made by the start of the period:                          -               -

           …issued during the period:                                                                      -               -
                                                                                             Subtotal      -               -
           …for which a management decision was made during the reporting period:

                      value of recommendations agreed to by management                                    1*           $250,000

                      value of recommendations not agreed to by management                                 -               -

           …for which no management decision was made by the end of the reporting
                                                                                                           -               -
           period:

           …for which no management decision was made within six months of
                                                                                                           -               -
           issuance:


           Table 5:	             Audits with Questioned Costs
           Reports…                                                                                     Number           Value
           …for which no management decision was made by the start of the period:                         -                -
           …issued during the period:                                                                     -                -
                                                                                             Subtotal     -                -
           …for which a management decision was made during the reporting period:

                         value of recommendations agreed to by management                                 -                -

                         value of recommendations not agreed to by management                             -                -

           …for which no management decision was made by the end of the reporting
                                                                                                          -                -
           period:
           …for which no management decision was made within six months of
           issuance:                                                                                      -                -




          *Human Resources Services’ Worklife Services Center: Good Overall Service, but Weak Controls Leave the
          Worklife Services Center Vulnerable to Abuse and Fraud, Audit Report No. 2009-PA-101, June 2009 (see page 5).




Opposite: Selections from the Thomas Jefferson Library, on Exhibit in the Thomas Jefferson Building.



                                                                                                        Semiannual Report to the Congress 29
       Instances Where Information or
       Assistance Requests Were Refused
       No information or assistance requests were refused during this period.

       Status of Recommendations
       Without Management Decisions
       During the reporting period there were no recommendations more than six months old without management
       decisions.


       Significant Revised Management Decisions
       During the reporting period there were no significant revised management decisions.


       Significant Management Decisions
       With Which OIG Disagrees
       During the reporting period there were no significant disagreements with Library management about decisions on OIG
       recommendations.


       Follow-up on Prior Period Recommendations
       In this semiannual period, we followed up on all open recommendations from our prior semiannual period. Com-
       ments on the status of individual recommendations appear in table 3A. Recommendations management asserts it has
       implemented during the period appear in table 3B. We perform detailed follow-ups of selected projects.




30 Semiannual Report to the Congress
Other Activities
Office of the Inspector General                                  As part of its overall assessment of the overseas field offices,
Authority to Carry Firearms Restored                             Library Services surveyed its CAP participants. The CAP
                                                                 leverages the Library’s acquisition endeavors to provide
We reported in our last Semiannual Report to the
                                                                 other major research institutions with materials for cost plus
Congress that the FY 2009 Omnibus Legislative Branch
                                                                 an administrative fee. A major administrative function of
Appropriations Act contained language that prohibited our
                                                                 all the Library’s overseas field offices is the management of
office from purchasing, maintaining, or carrying firearms.
                                                                 the CAP for their respective regions. The survey addressed
The FY 2010 Appropriations Act does not contain the
                                                                 questions such as: 1) Are the overseas offices acquiring and
restricting language.
                                                                 processing materials which are otherwise unobtainable? 2)
Anticipating that the FY 2009 restriction on our use of          Are the materials being collected the most desirable? 3) Are
firearms would be lifted, in July the Librarian requested that   overseas operations conducted in a cost effective manner?
we once again begin operating under the special deputation       4) Is the current operations model sustainable over the
from the U.S. Marshals Service with enactment of the FY          short- and long-term?
2010 Appropriations Act. He subsequently requested the
                                                                 We suggested that Library Services add additional questions
return of our firearms and we began operating under the
                                                                 to determine whether the CAP participants could easily and
deputation in October. In August, the Librarian had sent
                                                                 cost-effectively obtain the materials by other means and to
correspondence to House and Senate committees asking
                                                                 rate the importance of the program to each participant.
the Library’s authorizers to amend our statute, The Library
                                                                 Additionally, we suggested that Library Services reword
of Congress Inspector General Act of 2005, to authorize
                                                                 several questions that we believed were leading the
us to apply to the Attorney General for law enforcement
                                                                 respondent to a particular answer. We also suggested
authority, as with comparable executive branch agencies.
                                                                 adding comment boxes to allow survey respondents to
At the end of October, the request was pending.
                                                                 provide additional information.
Cooperative Acquisitions Program Survey
                                                                 Pre-Award Contract Review

At Library Services’ request, we reviewed and commented
                                                                 At the request of the Office of Contracts and Grants
on a survey questionnaire Library Services developed to
                                                                 Management, we contracted for and coordinated a pre-
assess its Cooperative Acquisitions Program (CAP). The
                                                                 award contract review in a high-value contract solicitation.
CAP leverages the Library’s Overseas Field Offices by
                                                                 The pre-award review resulted in the discovery by the
acquiring materials requested by participating academic
                                                                 Defense Contract Audit Agency of inadequacies in one of
institutions and public libraries (presently 99 participants)
                                                                 the bidders’ financial management systems.
on a cost-recovery basis. We assessed the survey process
and the questionnaire design and structure. Library              Inspector General Testifies on IT Strategic Planning
Services prepared the survey in response to a request from       April 2009
the Government Accountability Office (GAO). The Joint
                                                                 The Inspector General testified before the House Committee
Explanatory Statement accompanying the Fiscal Year 2009
                                                                 on Administration on April 29, 2009 concerning IT
Omnibus Appropriations Act (P.L. 111-8) called on the
                                                                 Strategic Planning at the Library of Congress. The
GAO “…to examine the utility of overseas facilities for
                                                                 testimony was based on an audit report on this topic
the Library of Congress and report to the Committees on
                                                                 issued in March 2009. The OIG contracted with A-Tech
appropriations not later than August 1, 2009, including
                                                                 Systems, Inc. as an expert consultant for the audit. The
recommendations on the space needed and what efficiencies
                                                                 audit focused broadly on the Library’s plan for managing
can be made while maintaining the Library’s resource
                                                                 its IT infrastructure investments.
acquisition mission.”



                                                                                         Semiannual Report to the Congress 31
 The IG reported that the Library had made substantial strides in
 transforming its IT support function in recent years and pointed
 out a number of areas in which the Library has made tremendous
 progress in IT. But there are a number of areas in which the Library
 needed to take several significant steps to evolve. Specifically, the
 Library needed to unify the IT planning function and link it to its
 Strategic Plan, prioritize and budget for IT investments to reduce
 duplication of IT efforts and acquisitions, reorganize and empower
 the IT function to improve IT governance, develop an Enterprise
 Architecture program and combine it with the Library strategy for
 implementing future technology, and improve customer service.


 The complete testimony and report, Information Technology Strategic
 Planning: A Well-Developed Framework is Essential to Support the
 Library’s Current and Future IT Needs, March 2009, can be accessed
 on the OIG Web site at www.loc.gov/about/oig or from the Library
 of Congress Web site at www.loc.gov under “Inspector General.”

 Inspector General Testifies on the
 Library’s Worklife Services Center

 July 2009


 The Inspector General testified before the House Committee on
 Administration on July 29, 2009 concerning the Library’s Worklife
 Services Center in the Human Resources Services office. The essence
 of the Inspector General’s testimony is contained in the summary of
 a June 2009 audit report on this topic on page 5.


 The complete testimony and report, Human Resources Services,
 Worklife Services Center: Good Overall Service, but Weak Controls
 Leave the Worklife Services Center Vulnerable to Abuse and Fraud, June
 2009, can be accessed on the OIG Web site at www.loc.gov/about/
 oig or from the Library of Congress Web site at www.loc.gov under
 “Inspector General.”




                                                                          Above: 19th Century Hand Copy of the “Historia Apologetica,”
                                                                          Bartolome de Las Casas, J. Kislak Collection.




32 Semiannual Report to the Congress
Review of Legislation and Regulations
Table 6:           Review of Library of Congress Regulations
           LCR Reviewed                        Comments by the Office of The Inspector General
LCR 2018-5
Workers Compensation and         We made several recommendations to improve clarity and to indicate that certain
Benefits Under the Federal       federal penalties were applicable.
Employees’ Compensation Act
                                 We made several recommendations to improve the clarity of the LCR. In
LCR 2020-5                       addition, we recommended language be included indicating the responsibilities of
Enforced Leave, Suspension,      management with respect to the authority of the Inspector General in cases where
and Administrative Leave         the OIG is conducting an investigation concurrent with enforced administrative
                                 leave.

LCR 2014-5                       We made recommendations to help provide more information to staff with regard
Holiday Designations             to this LCR.

                                 We made several recommendations to improve the clarity of the LCR. In addition,
LCR 2017-2.1
                                 we made several recommendations regarding the applicability of the Library’s
Senior Level Executive System
                                 performance management system to senior-level OIG staff.

LCR 2010-10
Position Terminology in          We had no comment on this proposed regulation.
the Library of Congress
LCR 2010-11
Personnel Appointments,          We recommended some clarifications to the language of the LCR. In addition, we
Assignments, Qualifying/         made recommendations to indicate management’s responsibility to report certain
Probationary Periods,            personnel offenses to the OIG.
and Terminations
LCR 211-6
Functions, Authority, and        We continued working with the Library to make recommendations for clarity and
Responsibility of the            help align the proposed LCR with the Inspector General Reform Act of 2009.
Inspector General
LCR 2023-9
Rights and Responsibilities      As with proposed LCR 211-6, we continued working with the Library to make
of Library Management            recommendations for clarity and help align this proposed LCR with the Inspector
and Employees to the             General Reform Act of 2009.
Inspector General

LCR 2015-21
                                 We had no comment on this proposed regulation.
Family and Medical Leave Act

LCR 2025-8
Implementation of the Americans We had no further comments on this proposed regulation.
with Disabilities Act




                                                                               Semiannual Report to the Congress 33
  Organizational Chart



                                                                  Inspector General
                                                                  Karl W. Schornagel
                        Counsel to the IG                         CPA                                         Administrative officer
                       Judith K. Leader, Esq.                                                                 Sheetal Gupta




                     Assistant Inspector                                                                   Assistant Inspector
                     General for Audits                                                                    General for Investigations
                     Nicholas G. Christopher, Esq., CPA                                                    Kenneth R. Keeler




Lead Auditor                                 Senior Lead Auditor                       Special Agent                           Special Agent
John R. Mech                                 Patrick J. Cunningham                     Pamela D. Hawe                          Kimberly J. Taylor
CPA                                          CIA                                       (Part-time)                             (Part-time)




Auditor                                      IT Auditor                                Special Agent                           Investigator
Cornelia E. Jones                           Jessica A. Tucker                          Hugh D. Coughlin                        Barbara A. Hennix
                                            CISA



Auditor                                      IT Specialist                             Management
Elizabeth Valentin                          Lawrence D. Olmsted                        Analyst
CPA                                                                                    Michael R. Peters




Auditor
Vacant




Management
Analyst
Peter J. TerVeer



Management
Analyst
Johnny A. Lloyd



Management
Analyst
Jennifer R. Dunbar




34 Semiannual Report to the Congress
Inspector General Hotline

     Help Promote Integrity, Economy, and Efficiency

 Report Suspected Fraud, Waste, Abuse, or Mismanagement

          Complaints May be Made Anonymously




                    Inspector General

                   Library of Congress
              101 Independence Avenue, S.E.
                          LM-630

               Washington, DC 20540-1060




     Main Telephone Number:     (202) 707-6314

                Fax Number:     (202) 707-6032

   Hotline Telephone Number:    (202) 707-6306

              Hotline E-mail:   oighotline@loc.gov

                    P.O. Box:   15051 S.E. Station
                                Washington, DC 20003


  Any information you provide will be held in confidence.
However, providing your name and a means of communicating
      with you may enhance our ability to investigate.
